98 SAN JACINTO BLVD.
SUITE 1500
AUSTIN, TEXAS
78701-4078
TEL +1 512.322.2500
FAX +1 512.322.2501

AUSTIN
BRUSSELS
DALLAS
DUBAI
HONG KONG
HOUSTON
LONDON

MOSCOW
NEW YORK
PALO ALTO
RIYADH
SAN FRANCISCO
WASHINGTON

BakerBotts.com

September 27, 2021
079716.0168

Evan A. Young
TEL: 512.322.2506
FAX: 512.322.8306
evan.young@bakerbotts.com

BY ELECTRONIC FILING
Hon. Scott Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 21-110, GMAG LLC, et al. v. Ralph S. Janvey, as Receiver for the Stanford
International Bank Limited, et al.

Dear Mr. Harris:
The petition for a writ of certiorari in the above-referenced case was placed on the
Court’s docket on July 23, 2021. Respondent filed a waiver, and on September 8, 2021, the Court
requested a response. The due date for a brief in opposition is October 8, 2021.
Pursuant to this Court’s Rule 30.4, respondent respectfully requests that the time
within which to file a brief in opposition be extended to and including November 8, 2021. Given
the briefing and oral argument obligations of counsel in multiple state and federal courts, the
extension will allow respondent to fully evaluate and respond to the petition and provide a brief in
opposition of maximum value to the Court. An extension will not materially delay the disposition
of the case.
Respectfully,

Evan A. Young
cc:

Counsel of Record for Petitioners:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004

